No. 19-123

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, et al.,

Petitioners,
v.
City OF PHILADELPHIA, et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 28, 2019.

Colin Conall ogan

Wilson-Epes Printing Co., Inc.
